<html>
<title> - REGIONAL PERSPECTIVES IN THE GLOBAL FIGHT AGAINST HUMAN TRAFFICKING</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





  REGIONAL PERSPECTIVES IN THE GLOBAL FIGHT AGAINST HUMAN TRAFFICKING

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 2013

                               __________

                           Serial No. 113-88

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

85-480 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Luis CdeBaca, Ambassador-at-Large, Office to 
  Monitor and Combat Trafficking in Persons, U.S. Department of 
  State..........................................................     7
The Honorable Tony Rackauckas, district attorney, Orange County, 
  Office of the Orange County District Attorney..................    22
Ms. Kay Buck, executive director and chief executive officer, 
  Coalition to Abolish Slavery & Trafficking.....................    27
Ms. Angela Guanzon, survivor of international trafficking, 
  Member, CAST Survivor Advisory Caucus and National Survivor 
  Network........................................................    33
Ms. Carissa Phelps, chief executive officer, Runaway Girl, FPC...    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Luis CdeBaca: Prepared statement...................    11
The Honorable Tony Rackauckas: Prepared statement................    25
Ms. Kay Buck: Prepared statement.................................    29
Ms. Angela Guanzon: Prepared statement...........................    34
Ms. Carissa Phelps: Prepared statement...........................    39

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Department of Justice statement for the record........    55

 
  REGIONAL PERSPECTIVES IN THE GLOBAL FIGHT AGAINST HUMAN TRAFFICKING

                              ----------                              


                        MONDAY, NOVEMBER 4, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:17 a.m., in 
the Titan Student Union Building, California State University-
Fullerton, 800 North College Boulevard, Fullerton, California, 
Hon. Edward R. Royce (chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. I am going 
to ask everyone, if you could find a seat and we will begin on 
our Human Trafficking Field Hearing.
    Let me also say that we are pleased to be joined today by a 
number of organizations here in Orange County that have been 
very involved with a task force that I put together some time 
ago in order to try to bring organizations in the community 
together with law enforcement--some representation from the 
bench to try and come up with some solutions to the trafficking 
problems. This time we will just mention that we have some 
people in the audience, who will go nameless, who work with the 
Federal Bureau of Investigation, but we appreciate their good 
service.
    But some of the others I am going to ask to stand for a 
minute and be recognized: Bob Smith with F.A.C.E.S.S.; Cheryl 
Pittluck from Vineyard Anaheim Human Trafficking Ministry; 
Chris Bauer, Saddleback Justice and Trafficking Initiative; 
Claude Arnold, Special Agent in Charge with ICE; Guido Hajenius 
with iEmpathize; Je'net Kreitner with Grandma's House of Hope; 
Joyce Capelle with Crittenton Services, Children and Families--
been around since the 1880s helping girls; Kimberly Yim, San 
Clemente Abolitionists; Leigh Dundas with A21 Project; Linh 
Tran of the Orange County Human Trafficking Task Force; Marji 
Iacovetti, ZOE Children's Home; Paula Daniels, Forgotten 
Children; Chief Raul Quezada, Anaheim PD; Sandra Morgan, Global 
Center for Women and Justice; Sherri Harris from the Salvation 
Army--their network that works with human trafficking; and 
Stephanie Pollaro and Wendy Dailey, co-founders of 
International Sanctuary.
    We thank them for their help on the legislation that we 
have authored. And I also thank my colleagues, who I am going 
to introduce in a minute, for their trip out here to 
California.
    But we must thank California State University, my alma 
mater here, today as well for making this venue possible, and 
our acting ranking member, Congresswoman Karen Bass. Many of 
you know that she is the former speaker here in the Assembly in 
California. She has been a leader on this issue.
    [Applause.]
    Chairman Royce. And we are working with her on this 
bipartisan legislation. We appreciate her trip out here. Randy 
Weber, we appreciate you coming all the way from Texas. Dana 
Rohrabacher, Congressman, we appreciate you and all your work 
as well.
    Mr. Rohrabacher. All the way from Costa Mesa.
    Chairman Royce. All the way from Costa Mesa. [Laughter.]
    And Alan Lowenthal will be here shortly all the way from 
Long Beach.
    But I am proud, I must say, of the work the Foreign Affairs 
Committee has done over the years, and all of these members 
serve on the committee with me, on human trafficking. In 2000, 
our committee put forward legislation that was focused on what 
we could do to force other countries around the world to put in 
place standards and to start to combat human trafficking. The 
consequence of that legislation is that we now we have 130 
countries around the world over that period of time that have 
strengthened laws on their books. And the reason they do it is 
a simple one: They try to stay out of a report that the State 
Department now does every year that shames them for their 
failure to comply with efforts to try to stop the trafficking 
of underage girls and try to stop the trafficking with respect 
to labor trafficking.
    And so, we have these tier rankings that we do, and part of 
our efforts in Congress has been to increase the pressure, 
increase the standards. And as we are traveling and meeting 
with foreign heads of state, this does come up. This does come 
up. They complain about the report, but they try to comply with 
it. And we think that continued vigilance is what is called for 
on that front.
    We appreciate that our top point person in the world is 
here, who has the role of traveling, and he is headed to 
Algeria a little later after his appearance here in California. 
But he is Ambassador CdeBaca, and many of you know he has had a 
rather prominent role in forcing this issue internationally, 
and we are pleased that he is with us today. Thank you, 
Ambassador.
    Trafficking is a global problem, but unfortunately for us 
it is not a far-away problem. And I mentioned here in Orange 
County some of the statistics, some of the things that the 
District Attorney's Office has shared with me. We have had a 
doubling of trafficking in underage girls every year for the 
last 3 years that those working in community-based 
organizations offering services have noticed in the community. 
And it is because of the expertise established by some of these 
criminal syndicates in the use, for example, of Romeos to find 
underage girls, to find a girl maybe 14 years old, convince her 
to leave her State, come to California, leave her ties with her 
family, and then begin the process of moving in with them. And 
before they know it, they are being beaten and trafficked.
    And as the District Attorney will tell you, it is those 
beatings which establish something of a Stockholm syndrome-type 
situation where that child is now afraid to testify against the 
individual who has done it. And now he sells her into a 
criminal syndicate that deals in these underage girls.
    We especially appreciate the work of the police 
departments, including the Anaheim PD--they are represented 
here today--in their efforts across this county and in southern 
California to try to prosecute. And for that reason, many of 
the organizations that we mentioned here today were involved in 
the passage of a Statewide initiative in California, Statewide 
proposition, which went into effect this year. And as a result 
of that law, we have our first conviction of an individual who 
was trafficking underage girls. In this case, he had taken her 
from Bakersfield to Sacramento, a 13-year-old, and he received, 
as I recall, some 32 years in prison for that act.
    This new legislation has teeth, but in talking to the 
prosecutors, what they say is they also need additional 
legislation not only to attack the problem of trafficked 
underage girls and labor trafficking out of countries in the 
United States, and we have legislation to do that, but also 
additional legislation to try to make it easier for 
prosecutions to go forward by creating an environment for 
underage girls especially to have an element of safety and be 
able to come forward and testify. So we are going to discuss 
some of those issues.
    But we held a committee hearing in May on this issue and 
had one of the supervisors from Los Angeles County, Don Knabe, 
tell about his experiences and the discovery that girls 10, 12 
years old were being trafficked in Los Angeles County and some 
of the steps that the county took.
    Well, going forward, we want to build on that work. The 
Orange County Human Trafficking Task Force has assisted 250 
victims. Ninety-three percent of them are women. Eighty of them 
were from foreign countries. A third of them are recruited in 
foreign countries by unscrupulous labor recruiters. Our 
legislation, the legislation that I have introduced, the 
Fraudulent Overseas Recruitment and Trafficking Elimination 
Act, requires that foreign workers be given accurate 
information about the terms of employment and anti-trafficking 
protections under U.S. law. It prohibits recruitment fees or 
hidden charges used as coercive leverage over workers. No 
longer can you get them into debt bondage. It requires the 
foreign labor recruiters to register. They have got to remain 
in good standing with the Department of Labor.
    Why do all of this? Because it gives us a ground for 
prosecution when people are involved in bringing trafficking 
into the United States. And it provides new incentives for law 
enforcement to ensure that recruiters and employers fall under 
a series of penalties and fees and consequences.
    So I look forward to the input from our expert testimony 
here today. And as my chief of staff can tell you, based on all 
her volunteer work with underage girls trafficked in India and 
in Cambodia, and there the average age when girls are 
trafficked is 11. She says you do not see the harm of human 
trafficking most clearly in numbers or statistics. You see it 
in the eyes of the individual person whose life is being stolen 
and whose dignity is being assaulted for the profit of someone 
else.
    We will hear today thankfully that in southern California, 
some of our organizations are on the cutting edge to fight 
trafficking and rescue and protect victims. And I want to thank 
our witnesses, but especially in closing I want to thank our 
courageous survivors who will testify, for being here to share 
their insights, share their expertise with our committee. And 
your message will be heard loud and wide, and certainly taken 
back to Washington, DC.
    We will now go to Congresswoman Karen Bass from Los 
Angeles.
    Ms. Bass. Well, thank you very much and good morning, 
everyone. I want to thank Chairman Royce for convening this 
hearing and in general for his leadership on the Foreign 
Affairs Committee, as well as his commitment to eradicating 
human trafficking. I know he is your congressional 
representative, but you should know that all of us are very 
honored to serve under his leadership on the committee.
    Although trafficking impacts every country across the 
globe, it is far too often unspoken and in the shadows. It is 
my hope that today's hearing will shed light on both the global 
statistics as well as the local trends right here in southern 
California. By learning more about the regional strategies 
utilized to stop this exploitation, we will surely be better 
prepared to strengthen our prevention, protection, and 
prosecution efforts both here at home and abroad. I look 
forward to sharing the solutions discussed here today with our 
colleagues back in Washington.
    In 2012, according to the International Labor Organization, 
nearly 21 million individuals worldwide were subjected to 
conditions of human trafficking. Unfortunately, the U.S. is not 
immune to this problem. The State Department's ``Trafficking in 
Persons Report'' outlined that the U.S. is a source, transit, 
and destination country for labor and sex trafficking of men, 
women, and children. While the assessment has been helpful in 
highlighting certain types of trafficking, it does not include 
raw new data recently reported about the domestic minor 
victims.
    In 2013, 60 percent of the child sex trafficking victims 
recovered as a part of an FBI nationwide raid from over 70 
cities were children from foster care or group homes. This 
issue is very close to me personally because it greatly impacts 
Los Angeles, and our Nation's foster youth are a vulnerable, 
yet resilient population that we remove from their homes and we 
pledge to keep them safe. In fact, in Los Angeles County alone, 
hundreds of youth are commercially exploited each year. In 2012 
in Los Angeles, 78 percent of the girls identified as victims 
of trafficking were current or former foster youth.
    Despite these statistics, few child welfare employees have 
been adequately trained or are prepared to respond to child 
victims of trafficking. And fewer still have incorporated 
policies, protocols, and case management techniques to serve 
this population appropriately. It is absolutely unacceptable to 
allow the continued victimization and abuse of a population 
that we have vowed to care for and protect.
    That is why my fellow colleagues on the Foreign Affairs 
Committee and co-chair of the Congressional Caucus on Foster 
Youth, Representative Tom Marino, and I have introduced the 
Child Welfare Response to Trafficking Act. Our bill will do 
three things. It would ensure that child welfare agencies 
create plans to prevent the exploitation and provide 
appropriate services to victims. It would create a best 
practices toolkit for child welfare agencies. And it would 
provide accurate State-by-State and national statistics in a 
comprehensive report to Congress.
    As Federal legislators, we have a tremendous opportunity to 
ensure that local plans to prevent exploitation are in place, 
as well as collect the necessary national data to inform future 
Federal strategies. While many of the social services needed to 
properly serve trafficked youth may require a monetary 
investment, these first steps do not require additional Federal 
funding.
    But congressional action is not enough. We must undertake a 
whole of society and a whole of government approach that works 
to ensure the safety and dignity of trafficking victims and 
acknowledges that human trafficking affects U.S. citizens and 
foreign nationals as well as millions of adults and children, 
men and women worldwide.
    I look forward to hearing the testimony today, and I, along 
with my colleagues, really want to thank you for being willing 
to come forward and share your stories. I know that it might be 
painful, but it is just extremely important that people 
understand exactly what happens and how we need to help. Thank 
you very much.
    Chairman Royce. Thank you, Congresswoman Bass. Randy Weber 
came all the way from Texas for today's hearing. He serves as 
vice chair of the subcommittee dealing with Global Human 
Rights, and his commitment to these issues extends back to his 
days in the Texas legislature where he offered landmark 
legislation there to combat human trafficking and to protect 
trafficking victims.
    Mr. Weber. Well, thank you, Mr. Chairman. I want to start 
out by thanking you for calling this important hearing, and my 
colleagues for taking out the time to come all the way from 
California [laughter] which is a little bit closer than Texas, 
I will tell you. I frequently joke as I leave DC to go back to 
my home State of Texas that I am returning to the land of 
sanity. Yet there is some real truth. I think it is important 
that we leave the Beltway behind and all the politics and we 
come back into the trenches to actually hear from those who are 
dealing with these treacherous realities of life as some of our 
witnesses have been through firsthand. And again, I want to 
echo my colleagues' comments in saying thank you for being 
willing to come and share your story.
    We need to be back in the land of reality, as I call it, to 
hear these kinds of stories and to deal with these kinds of 
atrocities so that when we go back to DC, we realize how our 
decisions impact those who are out in the real world, as I like 
to call it, how our decisions affect them. Sometimes it is the 
decisions that we do not make, Mr. Chairman, the things that we 
will not take up, that we will not address. So I think it is 
important that we come back and we come to these kinds of 
events and we learn from those who are here on the ground.
    Mr. Chairman, you alluded to the journey I started nearly 5 
years ago in the Texas legislature when I got involved in human 
trafficking issues. And at that time, I had absolutely no idea 
of the prevalence of participation in the industry, the 
magnitude of profit, the horror, absolute horror, faced by 
those trapped in this life. I instinctively knew immediately 
then it was not right, and I had to pitch in and stop this 
madness. Since then we have been privileged to be a leader in 
the Texas State legislature in that fight against this 
abhorrent slavery. We created the very first Statewide human 
trafficking prevention task force in the Texas legislature, 
House Bill 4009. We added criminal enhancements for those who 
buy and sell humans as if they were commodities. And we 
included even those who assist in the trade and benefit from 
it. We added them to the criminal list. And as I said to a 
number of groups when we spoke back in Texas, that we would 
like to catch those perpetrators and put them under the 
jailhouse.
    We strengthened the penalties. We increased the definition 
of ``human trafficking'' so that it included a lot of these 
extraterritorial, extraneous criminals, I guess I should say. 
We added significant protections for minor victims. We wrote 
the Code to simplify criminal prosecution.
    And then we began to tackle the demands. I was encouraged 
reading today about one set of comments. They do not call them 
``johns.'' They call them ``purchasers of sex.'' We tackled 
that demand. We changed the law to allow the creation of the 
First Offender Prosecution Prevention Program in our State.
    And the deeper involved I got into the fight, the more 
horror stories I heard. The larger the number grew of those 
impacted, and I think, Karen, you are exactly right when you 
say it is not the numbers that you have to look at, or maybe it 
was you, Mr. Chairman. It is the eyes. When you look into the 
eyes of the victims and you realize the pain and the suffering 
and you hear the stories, it just causes us to want to redouble 
our efforts.
    We must not let those numbers be so large that we become 
desensitized. We have got to keep this in the forefront, got to 
educate, got to make this a priority, and got to make sure that 
we make the public aware of it. The magnitude of this industry 
can literally be overwhelming, unbelievably overwhelming.
    We must focus in one individual at a time. Now, there were 
some statistics in the reading today and a lot of the comments 
made, I think, were 17,000--I forget. It was 17,500 victims in 
a particular State or county or area, I forget. And I am 
thinking 1 percent, 175 lives. If we change and help 1 percent, 
what a great number that would be. Think if it was 10 percent. 
What a great number that would be. So one person rescued, one 
life saved, one more person on the road to restoration. It is 
worth it. It is absolutely worth it. All of those stories, all 
of your stories, all of those individuals add up to 
encouragement, hope, and keep us motivated to continue this 
fight.
    I thank you for this holding this, Mr. Chairman. I yield 
back.
    Chairman Royce. Thank you, Mr. Weber.
    Congressman Rohrabacher, who represents the 48th District 
of California, is chairman of the Subcommittee on Europe, 
Eurasia, and Emerging Threats. Mr. Rohrabacher, would you like 
to make a statement?
    Mr. Rohrabacher. Well, I would just like to thank the 
chairman, Chairman Royce, for the leadership that he is 
providing as chairman of the Foreign Affairs Committee and 
those of us who are on the Foreign Affairs Committee. We 
obviously have a very wide view of the problem.
    Can you hear me now? All right. Should I repeat what I said 
about Ed Royce? [Laughter.]
    Mr. Rohrabacher. I would just note that those of us on the 
Foreign Affairs Committee have a very wide view of what is 
going on in the world. And there a lot of evil things that are 
happening in the world, a lot of things that threaten our 
national security, a lot of things that demand our attention 
for the immediate safety of our country and our people. And I 
applaud Ed and the other members of this committee for what we 
are trying to do to meet those challenges.
    But, you know, it is really easy when you have got these 
grandiose visions of an army of terrorists who want to blow up 
buildings and murder our people and how we are trying to thwart 
that. And it is really easy to overlook maybe something that is 
right in our own neighborhood and is an evil that we need to 
pay attention to. In this case, that evil does have ties to 
things that are happening in foreign countries, for young 
people who are being exploited and brought here. And I really, 
again, want to applaud our chairman for taking the time to look 
at that and to look at this and see what we can do about this 
issue that deserves our attention.
    Thank you very much.
    Chairman Royce. Thank you, Congressman.
    We are going to now turn to our witnesses. And as I shared 
with you before, your full prepared statement will be part of 
the record. And without objection, all members may have 5 days 
to submit statements or questions.
    And I would like to submit for the record the collection of 
one-page information sheets provided by the members of the 
Human Trafficking Congressional Advisory Caucus that I work 
with, and I mentioned them earlier. And that has been a very 
welcome resource for the committee.
    And with that, we will introduce our first witness. For 4 
years now, Ambassador CdeBaca has served as Ambassador-at-Large 
and Director of the Office to Monitor and Combat Trafficking in 
Persons at the United States Department of State. Before that 
he served as counsel to the House Judiciary Committee following 
a successful career as a Federal prosecutor, during which he 
received the Attorney General's Distinguished Service Award for 
his role as lead trial counsel in the largest slavery 
prosecution here in the United States.
    Mr. Ambassador, we thank you for being here in Orange 
County today and for the work that your office does every 
single day.

 STATEMENT OF THE HONORABLE LUIS CDEBACA, AMBASSADOR-AT-LARGE, 
   OFFICE TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador CdeBaca. Thank you, Mr. Chairman, and thank you, 
all of the members of the committee, Ranking Member Bass and 
everyone else. Good morning.
    Chairman Royce. Ambassador, will you pull the microphone 
just a little closer?
    Ambassador CdeBaca. Of course. Thank you for the invitation 
to testify and for your commitment to the fight against 
trafficking in persons. The work of Congress on this issue has 
sent a clear message that the U.S. rejects modern slavery and 
that responding to this crime wherever it exists is a priority 
for our country.
    Now, trafficking in persons is the umbrella term that we 
use for all of the conduct involved in reducing a person to, or 
holding a person in, a state of compelled service, whether for 
sex or labor. And there are a lot of legal ways to skin that 
cat. There are a lot of euphemisms and different terms that get 
used. But I am glad that Mr. Rohrabacher named it so plainly 
for all of us: It is evil. And that evil, to really illustrate 
what that means, I think we have to look to the survivors. We 
have to look to the victims.
    It is the man who boarded the fishing boat with a promise 
of a good job, instead was forced to work 20 hours a day for 
months on end, beaten, starved, and told he could keep working 
or lose his life. It is the woman who left home for better work 
as a maid in a foreign country, who instead found herself cut 
off from the outside world, never given a day's rest, passport 
confiscated, wages withheld, abused, and then the knock on the 
door at night: The sexual assaults. It is the child prostituted 
in a brothel, enduring unspeakable exploitation. It is the 
teenager aspiring to a different life, manipulated by promises 
of love and opportunity.
    These are people we know, who we have met, whose stories we 
seek to tell at the State Department. They are from abroad and 
they are American. They are men, women, and children. They are 
migrants, and they are people who have never left home. They 
are in remote countries, and they are in the communities in 
which they were raised. And the estimates, as we have heard, 
range from 21 million to 28 million of them.
    That is why today's hearing is so valuable. It reminds us 
that this is not simply a crime that happens over there, that 
the efforts to deal with this challenge are not just carried 
out from Washington. This crime must be dealt with in every 
town hall, courthouse, and police precinct across this country 
because modern slavery undermines the rule of law and justice. 
It tears at the fabric of our families and our communities, and 
it is an affront to all of our most dearly held values of human 
rights, freedom, and dignity for all people.
    Today I would like to talk a little bit about the way 
partnerships are an essential tool in the struggle. Because 
trafficking in persons is first and foremost a crime, it also 
touches many other areas: Labor, immigration, health, 
agriculture, and transportation. This is why we need to spread 
understanding about this crime and how it intersects with 
different various areas of concern and jurisdiction. Much like 
the work, Ms. Bass, that you are doing with the Child 
Protective Services around the country, that notion of 
preexisting jurisdiction, preexisting systems that were set up 
not thinking about human trafficking, how they need to 
incorporate it into their work.
    To do that, we need to share information and practices, and 
to cooperate on efforts to protect victims and prosecute 
traffickers. We have to think about how to go up the supply 
chain to those who profit, who do not care where their fish or 
fiber comes from, the hotel managers who, with reckless 
disregard, look the other way when the pimp sets up business on 
their property.
    At the Federal level, partnerships are the center of our 
antitrafficking efforts, and part of that is because of the 
President's Interagency Task Force that Congress set up in 2000 
through the Trafficking Victims Protection Act. This Cabinet-
level body meets every year to review progress across the 
administration and to chart our path forward.
    And in doing that, we have seen that we have made a great 
deal of progress in recent years, but we are clear eyed about 
the fact that there is so much to do, and that government alone 
cannot solve this problem. And that is why our Federal 
partnership approach tries to bring together a wide range of 
activists and advocates. We are working with partners in the 
survivor community, the public sector, the private sector, the 
faith community, civil society, academia, everyone who cares 
enough to join this fight.
    Looking ahead, we know that the next step in this struggle 
is confronting this issue at the local level. After all, right 
now a trafficking victim is likelier to come into contact with 
a local patrol officer than an FBI or an ICE agent. Right now, 
they are more likely to encounter a prosecutor in a specialized 
domestic violence unit than they are one with experience in 
human trafficking cases. So in the years ahead, we hope that 
more and more local level partnerships will emerge to help 
drive this effort forward.
    Now, the partnership model that we have adopted at the 
Federal level will not be the right fit for every community. 
But there are elements of effective partnerships that we hope 
that State and local leaders will look to. For example, we need 
to make sure everyone that could have encountered a trafficking 
victim knows what they're seeing and has the information about 
what to do next. We need to make sure that justice and law 
enforcement officials work with caregivers and activists so 
that survivors can get the support and resources they need--
rehabilitation, restoration, jobs, and restitution--and knowing 
that their abuser will not hurt them or anyone else anymore, 
seeing their abusers held to account.
    Here in California, we have seen excellent examples of 
that, and we are very happy that the members of the Orange 
County Task Force and the Los Angeles Area Task Forces are able 
to join us. These partnerships work. They work here and they 
work abroad. In India, NGOs are helping victims leave the brick 
kilns, and the newly-formed anti-human trafficking units at the 
State level are starting to take those cases up. In Nigeria, 
the NAPTIP organization is co-locating special social workers 
and specially-trained police together for when a victim comes 
through the door. In Canada, Native American leaders are being 
brought into the fight, and hotel operators are stepping up in 
Mexico with job training. Partnership is the solution, whether 
in California or Cameroon, whether in Texas or Tunisia.
    In conclusion, I want to make to clear to the committee 
that the Obama administration will partner with you and anyone 
who takes this crime seriously because slavery cannot be 
tolerated whether in history or in the 21st century. My former 
boss on the Judiciary Committee perhaps said it best when John 
Conyers said that ``Emancipation was not a 1-day event; it was 
a promise, a promise written in the blood of all who lived in 
bondage and all who died to end it.''
    Today we hear the voices of the survivors of the past and 
of the present. We cannot--we will not--shirk our duty to make 
good on the promise of emancipation. And I am confident that by 
working in partnership, our shared goal is within reach--a 
world free from slavery. Thank you.
    [The prepared statement of Ambassador CdeBaca follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Thank you, Ambassador. Let me ask you one 
or two questions, and then we will move down the panel with 
some questions on this.
    One of those questions I was going to ask is we had the 
reauthorization of the Traffic Victims Protection Act this 
year. We put it into the larger bill of the Violence Against 
Women Act. And as part of that, we had language that was 
focused on what we would do on ranking countries overseas to 
try to ramp up the pressure. And some of those countries have 
been entering into these agreements, antitrafficking 
agreements, that are called partnerships, that to quote from 
the agreement, ``have resulted in concrete and measurable 
outcomes.''
    What I wanted to talk to you about is how do you get those 
outcomes to be something truly measurable? How do you 
promulgate perhaps regulations to say it is going to depend 
upon the number of prosecutions or it is going to depend upon 
the number of victims who are assisted, something tangible that 
allows us more than a judgment call when you do the assessment 
on compliance?
    Ambassador CdeBaca. I think, Mr. Chairman, that goes to the 
heart of how we are looking at this requirement from the 
Trafficking Victims Protection Reauthorization Act. What we do 
not want, just as at the same time that we are saying that 
partnerships are emerging as the fourth P from the three-P 
paradigm of prevention, protection, and prosecution, that 
partnerships are the way to effectuate that. But partnerships 
for partnerships sake are not a panacea, and they should not be 
a refuge for a country that is doing nothing on human 
trafficking.
    And so, we are working right now with the rest of the State 
Department as we ramp up for this coming year--it will be the 
first year of the report--where we are taking those 
partnerships into account. And one of the things that we are 
talking about internally is that notion of weighting those 
partnership efforts, and I think that just as you yourself have 
expressed and just as the legislation has as its touchstone 
that notion of concrete and measurable.
    Concrete and measurable comes back to the things that are 
in the other minimum standards: The number of prosecutions, the 
number of victims held, whether the sentences are actually in 
line with kidnapping, extortion, et cetera. Those are the 
things that I think that we are going to be looking to. So we 
are trying to make sure that we will not have strategic 
behavior on the part of countries around the world to enter 
into empty partnership agreements that do not have time-bound 
goals and structures put in place.
    Chairman Royce. Well, we want to work with you on something 
concrete where you can show exactly what are the prosecutions, 
you know, what are the programs out there to assist underage 
victims and so forth.
    The other question I was going to ask you is, the Orange 
County Anti-Trafficking Task Force has reported that nearly 90 
percent of the labor trafficking victims that they assist are 
foreign citizens. We will hear from one such victim here on the 
panel today. But how significant a factor is fraudulent 
overseas labor recruiting in international human traffic in the 
United States in your assessment?
    Ambassador CdeBaca. Mr. Chairman, we think that this is a 
big factor in the exploitation of the workers. And this is one 
of the reasons why in the executive order that President Obama 
issued for Federal contracting, the standard that we put in 
place and that is currently in the Federal Acquisitions 
Register, which is open for public comment right now, is the 
notion that no recruiting for fee is appropriate. Now, we 
understand that that's something that we can do by executive 
order for Federal contracts, and that those who do not want to 
abide by that can choose not to apply for a Federal contract.
    It is something, though, that we see across the globe, that 
when people have to buy a job, they end up going to either the 
labor recruiters themselves for the loan, or they have to go to 
a loan shark in their home village. And so, they owe so much 
money that they are almost already in debt bondage before they 
even show up at work.
    And so, when we are looking at this through the executive 
order--we know that there is some legislation out there on this 
as well--we very much want to be moving the conversation both 
in the U.S. and globally to confront this, because we have seen 
in country after country where it is not the stereotype of 
illegal immigration that is fueling the trafficking. It is, as 
we saw in this year's report, the advertisement in the paper 
that said ``Indonesian maids for sale,'' perhaps more honest 
than they should have been. In that country, the way that they 
were bringing in those Indonesian maids was through labor 
recruiters.
    And so, I think that that's what we see time and time again 
is it is not simply the underground economy. It is in labor 
recruiting. It is in the places where the vulnerable are 
brought in to do the types of dirty and dangerous jobs that 
others do not want.
    Chairman Royce. Thank you, Ambassador. My time has expired.
    Karen Bass?
    Ms. Bass. I actually want to follow up on what you were 
saying in terms of the labor recruiting, and a couple of 
things. One, I wanted to ask you which countries are involved 
in recruiting labor to the United States. And then in terms of 
the fees, you know, I recently learned about au pairs and how 
they are recruited into the United States. And a person who 
wants an au pair pays a fee and does not realize that the 
person who wants to be an au pair pays a fee.
    So is there something that we could do about that since it 
is directly coming here and there are businesses that I imagine 
that are U.S. businesses?
    Ambassador CdeBaca. As far as the biggest countries that 
are sending folks into the U.S. through labor recruiters, we 
have just been looking at the cases that have come to light. We 
have certainly seen folks coming from India. We have seen folks 
coming up on some of the agriculture visa programs from Mexico. 
And we have ended up seeing a lot of eastern European labor 
brokers, who will end up in perhaps nontraditional visa 
categories. The abuse that has been seen, for instance, in the 
Summer Work and Travel Program is something that the State 
Department has been looking at issuing new rules as to what 
those students can be put into in the first place.
    So I think that it is something that we are seeing that 
places that unfortunately have trafficking problems at home, 
and that have trafficking problems when they are sending their 
people to other parts of the world are also sending their 
people to the U.S.
    Ms. Bass. Do they come over here legitimately and then they 
fall out of status, and then they wind up being----
    Ambassador CdeBaca. A lot of times they fall out of status 
because the labor recruiter is putting them into a job that 
they did not get approved for, so they will bring them over. I 
think, for instance, a good example is a case that I prosecuted 
when I was at the Justice Department where the girls had not 
been taken to Virginia Beach to work in the retail stores that 
they were supposed to under their visa. Instead they ended up 
in Detroit in a strip club. Now, at that point they were out of 
status because they were not working at the place.
    Now, of course, the second that they were out of status, 
the traffickers started telling them----
    Ms. Bass. Right.
    Ambassador CdeBaca [continuing]. You know, you cannot go 
for help because they will turn you over to immigration. So it 
is an out of status situation that is created by the fact that 
they have been exploited by the traffickers.
    Ms. Bass. So are these U.S. companies? And then if you 
could answer the au pair question because I guess I am trying 
to get at the same thing that the chairman was mentioning, is 
like how can we tie it down to do something specific. If they 
are U.S. companies, can we not do something about that?
    Ambassador CdeBaca. Some of them are U.S. companies. For 
instance, if you are looking at the au pairs, if you are 
looking at Summer Work and Travel, et cetera, they are 
companies that exist to facilitate those things. Some of them 
are overseas companies where you will have labor recruiting 
companies that are, for lack of a better term, flagged in other 
countries.
    So there was a situation a few years ago with a company 
called Global Horizon, which is actually owned by an Israeli. 
There are situations with folks from Bangladesh and India that 
are bringing people in, whether it is training visas or 
otherwise. So it is, I think, something that we have seen in 
both U.S. and foreign companies, but all of those end up going 
through the process. And so, there is very much a Federal 
jurisdictional hook, whether it is through immigration law or 
whether it is through regulating these American companies.
    As far as the au pairs are concerned, I think, you know, 
what we have seen is that this notion of double dipping by the 
recruitment fees is a problem around the world. And I was 
talking recently to a now former president of Manpower Group, 
who said that he told the folks from the Bangladeshi Recruiters 
Association, Manpower does not require the applicant to pay 
because the employer, the potential employer, pays all of their 
costs. And they are very reputable, the largest sourcing 
company in the world, and they have done that profitably not by 
shipping the costs over to the workers.
    And one of the things that he certainly has seen was that 
not only was the exploitation higher, but the ability of those 
recruiting companies to get the right workers into the right 
jobs is less because they do not care about that. The only 
thing they care about is, is this person willing to mortgage 
themselves to me so that I will then be able to profit from 
placing them?
    So I think that making sure that the model that we have 
seen successfully in the marketplace of the employer pays for 
recruiting as opposed to employee pays kickbacks to get the 
job, moving toward that would be, I think, revolutionary.
    Ms. Bass. Thank you.
    Chairman Royce. Thank you, Congresswoman Bass.
    So we go now to Congressman Weber.
    Mr. Weber. Thank you, Mr. Chairman. Let me follow up on 
something, Mr. Ambassador, if I may. You said you were speaking 
to, was it a former executive of Manpower? Okay. And you said 
he was from Bangladesh, and they have a recruiters association? 
Are we able to get in touch with those associations and say, 
look, we would like to see an outline, a format, whereby we can 
track this? Do we have that capability?
    Ambassador CdeBaca. We certainly have the ability to meet 
with the folks from BAIRA, for instance, in Bangladesh. I think 
that what we have seen is that the pressure that was being put 
on BAIRA both by the U.S. Government, by some of the other 
destination countries, but also by the Bangladeshi Government 
in the wake of them passing their new trafficking law about a 
year and a half ago, may have lessened a little bit as so much 
of the attention now has moved over toward the tragedy at Rana 
Plaza with the collapse of the building, coming as it did after 
another tragedy involving a fire.
    I think that right now, a lot of the energy in the 
relationship with Bangladesh around workers' treatment and 
safety is being seen through that lens of the garment sector.
    Chairman Royce. Mr. Ambassador, you are going to have to 
pull that microphone closer.
    Ambassador CdeBaca. Sorry about that. So I think that what 
we have seen is that the focus on the garment sector in the 
wake of the Rana Plaza tragedy and others perhaps has taken a 
little bit of heat off of BAIRA, the Bangladesh Labor 
Recruiters Association. But it is something that we continue to 
look at, and we are certainly trying to work with the 
Bangladesh Government to put pressure on it.
    Mr. Weber. Well, I was unaware--forgive me, Mr. Chairman, 
for taking so long. But I was unaware that there were those 
kinds of associations. I guess my question is, if we went 
country by country, and I know there are 180 or whatever number 
of countries it is. And we have got the good guys who will sign 
up with an association, trying to do it the right way, and, of 
course, the bad actors are not going to do that. But can we 
give them an incentive in each of those countries, those 
associations, in order to turn over to us the names of the bad 
actors, because I am sure they would like to do away with that 
competition as well. We have a little competition incentive for 
them. Have we tried that, to your knowledge?
    Ambassador CdeBaca. That specifically I do not think that 
we necessarily tried, and I think we will definitely take that 
on board.
    I think that one of the things that we are very interested 
in, and we are seeing this with the supply chain work, it 
really first came out of the California Supply Chain 
Transparency Act that I know a lot of folks here in the room 
worked so on. And that is that notion of the companies that use 
these recruiting companies, the companies that are using those 
factories, such as the Rana Plaza and others, having to now 
publicize their anti-slavery and their antitrafficking 
policies. That is something that is only here in California. It 
does not have a lot of penalties. It does not look to how good 
those policies actually are.
    I know that our cousins over in the UK are looking at 
legislation that would be more akin to the Dodd-Frank work on 
the conflict minerals where companies are going to have to 
start certifying the conflict minerals----
    Mr. Weber. Yeah, I saw that----
    Ambassador CdeBaca [continuing]. Come this spring. And so, 
that is something to look at. I am not sure if she has 
reintroduced it, but I think Ms. Maloney may have some 
legislation on that for trafficking and slavery as a whole. 
That may be a way to look at this to be able to drive that 
change such as the Dodd-Frank legislation did with eastern 
Congo.
    Mr. Weber. That is something that I hope you will look at. 
And one final question. I know that we have tiers set up--Tier 
I, II, and III--and we have countries that wind up getting bad 
grades, and we wound up actually having to sanction them. It 
seems like there has been a new category established, an 
automatic downgrade. How did that come about, and was that 
because we were sensitive to foreign diplomacy? I mean, if we 
have a bad actor, do we somehow try to soften that blow? How 
did that come about?
    Ambassador CdeBaca. Well, I was on staff at the time, and I 
know that a lot of the members had the concern as we were 
looking at the 2008 reauthorization, a concern that a number of 
strategic countries had been on the tier 2 watch list for many 
years. And there was a term that we bandied about at the time 
at both the staff and member level, was this notion of the tier 
2 watch list parking lot, the idea that a country might be so 
important that you just had them on the tier 2 watch list 
rather than actually having them fall into tier 3.
    The way that the auto downgrade works is that over the 
course of several years, the country can avoid falling 
automatically if it has an action plan and resources to 
effectuate that action plan. Some countries were able to do 
that, and other countries fell to tier 3. This last year, the 
waivers for the action plans were no longer available, and we 
indeed saw Russia, China, and Uzbekistan fall to tier 3 on the 
Trafficking Persons Report.
    And we have seen, I think, certainly the downgrading of 
those countries having as good result as far as conversations 
that we have been having since then. I am going to be going to 
Moscow soon. I was meeting with the Uzbek Ambassador a couple 
of days ago. So I think that it is something that we are 
getting these countries' attention.
    Mr. Weber. Thank you, Mr. Ambassador.
    Chairman Royce. We will go to Mr. Rohrabacher.
    Mr. Rohrabacher. Can you give us some just two or three 
specific recommendations of where local officials and local 
authorities can work with the government and vice versa with 
the Federal Government where you would like to see an expansion 
of cooperation or doing a better job?
    Ambassador CdeBaca. Thank you, Mr. Rohrabacher. I think 
that the places where we would like to see a better job done I 
think is in the notion of the longer-term, more proactive 
investigations. Right now, there is kind of a divide between 
feds do long-term investigation and local first responders are 
doing kind of, you go to a hotel, you see something, you charge 
it, and then it gets referred up to the prosecutor's office. 
And that first police officer kinds of hands off the case.
    There are phenomenal detectives in State and local law 
enforcement around the country, and they can do that type of 
longer-term, more proactive investigation. They can only do 
that, though, if they are cut loose from some of their other 
responsibilities. It is a bit of a zero sum game right now. If 
you take somebody off of looking at drugs in biker gangs so 
that you can then go after the pimps, then the biker gang 
problem can end up getting out of control.
    So I think that that's one of the things that we want to 
look at, but recognizing that this is a time of austerity. This 
is not necessarily a time of new federally-funded task forces 
as we have seen in some other areas in the past. So I think to 
me one of the things is that notion of moving away from 
responsive law enforcement and moving toward proactive law 
enforcement, harnessing the power of the local detectives to 
really make cases.
    Mr. Rohrabacher. Thank you very much.
    Chairman Royce. We have been joined by Congressman Alan 
Lowenthal, who represents the 47th District in California, and 
he serves on the Subcommittee on Terrorism, Nonproliferation, 
and Trade. Thank you very much, Alan. Did you have any 
questions at this time?
    [Nonverbal response.]
    Chairman Royce. Okay. We are going to go now to our second 
panel, and we will begin with Tony Rackauckas, who is in his 
fourth term as district attorney here in Orange County. He 
served as judge and presiding appellate judge of the Orange 
County Superior Court, also as a municipal court judge, and as 
a social worker in Los Angeles County. He is a former U.S. Army 
paratrooper. He is a graduate of the Loyola University School 
of Law in Los Angeles.
    We also have Ms. Kay Buck, CEO and executive director of 
the Coalition to Abolish Slavery and Trafficking--that is 
CAST--in Los Angeles. During her 20 years of human rights work, 
Kay Buck as served as director of the Rape Prevention Resource 
Center of the California Coalition Against Sexual Assault. And 
she spent over 5 years in Asia working with nongovernmental 
groups on anti-slavery projects there.
    We have Ms. Angela Guanzon, a survivor of international 
trafficking who, while attempting to help support her family, 
was lured from her home in the Philippines to Long Beach, 
California. Now a certified nurse assistant, she is a member of 
the National Survivor Network and the CAST Survivor Advisory 
Caucus. She was honored with their 2012 Seeds of Renewal Award 
for her advocacy and her leadership.
    Ms. Carissa Phelps is founder and CEO of Runaway Girl. She 
is a survivor of child sex trafficking and an abusive life on 
the streets as a runaway youth. I think at the age of 12 this 
challenge began for her. And she later earned her JD and MBA 
degree from UCLA School of Law and the UCLA Anderson School of 
Management. She was named one of her alma mater's top 100 
inspirational graduates in 2010.
    We welcome all of our panel, and we will be begin with Tony 
Rackauckas. Five minutes of testimony if you want to summarize, 
and then we will go to questions from there.

STATEMENT OF THE HONORABLE TONY RACKAUCKAS, DISTRICT ATTORNEY, 
  ORANGE COUNTY, OFFICE OF THE ORANGE COUNTY DISTRICT ATTORNEY

    Mr. Rackauckas. Thank you. Chairman Royce, Ranking Member 
Bass, and other distinguished members of the House Committee on 
Foreign Affairs, thank you for convening this hearing on one of 
the most significant abuses that is plaguing us locally and 
globally. It is a $32 billion enterprise, second only to 
narcotic sales and profitability. And, Chairman Royce, thank 
you for your continued leadership in this fight, including the 
recent introduction of the new bill, H.R. 3344, the FORTE Act, 
which is the Fraudulent Overseas Recruitment and Trafficking 
Elimination Act of 2013.
    A hundred and fifty years ago, President Abraham Lincoln 
signed the Emancipation Proclamation and declared that all 
persons held as slaves henceforth shall be free. Today, 150 
years later, we have been given a new mandate by State and 
national legislation. More than two-thirds of the commercial 
sex victims in the U.S. are American citizens, while a third of 
them are trafficked from foreign countries. It is time that we 
abolish modern-day slavery, including the commercial sexual 
exploitation of women and children.
    Human exploitation and trafficking generally comes in two 
forms: Forced labor, which we believe are highly under 
reported, and commercial sexual exploitation. Unfortunately, 
the things that make our county so great and such a tourist 
destination with our mild weather and available wealth also 
make our county one of the circuit stops for these sex 
traffickers and modern-day slave owners.
    The most concerning cases are the children who are being 
prostituted on the streets in strip clubs and brothels, and 
child pornography also that is being produced and traded on the 
Internet and around the world just simply with a click of the 
mouse. No child grows up hoping to someday be sold for sex.
    Shockingly, the average age of a child being trafficked in 
this county is 12, a little girl who has not even reached her 
teens. These victims are being isolated, coerced, seduced, 
threatened, and beaten into turning profits for individuals. 
These people have absolute disregard for other human beings. 
One of our defendants made a $25,000 profit in 2 weeks off just 
one trafficked victim. One defendant denied medical care for a 
young woman who was begging to see a doctor for her burning 
pelvic region. Another refused a shivering girl from coming 
inside from the cold. When one of the victims pleaded by text, 
``I can't keep anything down, you don't care,'' the defendant's 
response was, ``(Expletive), eat crackers.''
    Career criminals and gang members have decided that 
exploiting humans is cheaper and safer than trafficking drugs 
and guns. A typical modern-day slave owner is Berneal Holman, 
who was convicted of pandering a 16-year-old victim in Orange 
County. Before he perpetrated this crime, he had previously 
attempted to rape a 10-year-old girl and tried to use a 13-
year-old girl to turn tricks for the 10-year-old.
    Like the slaves of the past before they were emancipated, 
modern-day sex slaves are branded with tattoos of their owners' 
names. They are being bullied and beaten into selling their 
bodies, some over 10 times a day. For many of these victims, 
the slave owner is the only family they have, and they are 
forced to call these people ``daddy.'' Some of these victims 
are foreign women who are lured with the promise of earning a 
lot of cash to work in a legitimate job, and then they are 
stripped of their passports and forced instead to work in 
brothels. Some of these brothels are located in luxury 
apartments in upper class neighborhoods in Orange County.
    In order to protect these victims, the Orange County 
District Attorney's Office has responded to the mandate of the 
people by formalizing our efforts and launching a new vertical 
prosecution unit named HEAT, Human Exploitation and 
Trafficking. The HEAT Unit scrapped the conventional and 
traditional ways of law enforcement and took a fresh, more 
comprehensive approach to solve the problem using a tactical 
plan called PERP, Prosecution, Education, Resources, and 
Publicity. With the new weapons provided by Proposition 35, 
these defendants are going away to State prison for multiple 
years and even life terms. We have been educating police 
officers, prosecutors, students, community members, and we want 
to produce webinars and videos to take the message directly to 
parents and to children.
    The human trafficking victims need to be rescued, and we 
need to have resources to do that. They need a place to go or 
they will end up back on the street with their abusers. The 
Orange County public-private partnership, made up of 
corporations, non-profits, faith-based groups, law enforcement, 
and victims' rights groups, work hard to rescue these girls off 
the street. But sadly, we need a lot more resources.
    We are working hard now. Our HEAT unit has been in 
operation for about a year, and maybe a little more than a 
year, and we have many open cases. We have cases involving 
victims who are from other countries, involving victims who are 
from the United States. We have quite a number of felony cases. 
Five of those defendants are facing life counts, and many 
others are facing mandatory sentences of several years in 
prison. Like I said, we have some victims who are foreign 
nationals also.
    Our HEAT unit is here, and I am very proud of the work that 
they have been doing. And the police you can see also from 
Anaheim Police Department are the head of the Orange County--
not HEAT, but the Orange County victims group that we have and 
working to reduce this kind of a problem. I think they have 
done a magnificent job in Orange County. In fact, I think I can 
with some pride say that we have a defendant, for example, who 
is in prison, and he has been grumbling that if he was in 
another county he would be out by now. So with legislation, and 
prosecutions, and the kinds of sentences that get their 
attention, I think that we can make some inroads.
    And thank you again for conducting this forum so that we 
can end this modern-day slavery now.
    [The prepared statement of Mr. Rackauckas follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Thank you, Mr. Rackauckas.
    We go now to Kay Buck.

    STATEMENT OF MS. KAY BUCK, EXECUTIVE DIRECTOR AND CHIEF 
 EXECUTIVE OFFICER, COALITION TO ABOLISH SLAVERY & TRAFFICKING

    Ms. Buck. Thank you, Chairman Royce, and the committee 
members for holding this forum today. As the chairman 
mentioned, my name is Kay Buck, and I am the executive director 
of the Coalition to Abolish Slavery and Trafficking, also known 
as CAST. We are located in Los Angeles, California.
    Since 1998, CAST has been providing specialized services to 
survivors of human trafficking, while informing the movement to 
prevent modern-day slavery through our evidence-based 
approaches. CAST has worked directly with over 1,000 survivors, 
children and family members from over 58 countries around the 
world, including a growing population right here from the 
United States to provide emergency response, shelter, case 
management, and legal services, as well as a high-level 
leadership development program for survivors.
    CAST works closely with other nongovernmental 
organizations. We are a coalition of pro bono attorneys, law 
enforcement agents, as well as both Federal and local 
government agencies. We were the founder of the Los Angeles 
Metropolitan Task Force on Human Trafficking many years ago, 
and were the first to do that in the country.
    However, despite ongoing efforts to leverage existing 
resources, CAST acutely feels a gap in services because of the 
shortage of resources that are currently available for 
survivors of human trafficking. And I want to thank the 
chairman for pointing out all of my coalition partners in 
Orange County earlier in the hearing. They are the human rights 
defenders of our time, and they do so with very little 
resources.
    Last July, a report showed that that the U.S. Government 
spends approximately $100 million annually to combat the 9-
billion-dollar--and growing--industry of human trafficking. 
Compare this to the approximate $15 billion that we spend 
annually on the war against drugs. Clearly, efforts to prevent 
trafficking and assist more and more survivors need more and 
more support. This is evidenced in our numbers. Three years in 
a row, our numbers in serving new cases, new people coming to 
us for help, have doubled 3 years in a row. And I am sure my 
colleagues in Orange County have similar statistics.
    Victims of human trafficking are enslaved not only through 
physical means, but also through coercion, through fear and 
intimidation. In today's global economy, workers can be 
enslaved by threats of deportation, lack of viable 
alternatives, and especially death. We often think of 
undocumented immigrants as vulnerable to human trafficking, but 
almost 50 percent of our cases at CAST include individuals who 
come to the United States on lawful visas.
    Human trafficking thrives when immigrant workers are forced 
to pay labor recruiters high fees. And what we saw as maybe 
$2,000 as a fee 10 years ago is now upwards of $30,000. They 
are often charged very high interest rates, most of the time by 
the loan shark from a community, which puts the families at 
risk, and they do this in order to work lawfully in the United 
States. So these workers actually become vulnerable to debt 
bondage, one of the most pervasive forms of modern-day slavery 
today.
    CAST believes that one of the most important policy changes 
we can make is better regulation of foreign labor recruiters 
through the following four-pronged approach. First, the 
elimination of fees. Foreign labor contractors should not be 
allowed to assess any fees to the worker. Such fees may be 
borne by the employer. Second is disclosure. Foreign labor 
contractors must disclose all of the terms and conditions of 
the work in writing in both English as well as the worker's 
native language. Third is registration. Employers must use 
foreign labor contractors who are properly registered with the 
Department of Labor. And last, but not least, is enforcement 
and accountability. The Department of Labor should establish a 
process for receiving, investigating, and adjudicating 
complaints against either foreign labor contractors or 
employers.
    CAST commends Chairman Royce for his leadership in 
introducing H.R. 3344 in the House. This piece of legislation 
takes the comprehensive four-pronged approach I just outlined, 
and this bill is such an important one that will help prevent 
human trafficking and protect more workers. In addition to the 
protections already mentioned in the legislation, I would like 
to recommend also the inclusion of J-1 visa holders so that au 
pairs and nannies will receive the same protection as other 
workers coming to the U.S. from abroad.
    Finally, CAST believes that the business community must be 
an integral partner in combating modern-day slavery. CAST was 
an original co-sponsor of S.B. 657, the California Transparency 
and Supply Chain Act, that the Ambassador mentioned earlier. It 
requires companies to publicly reveal the steps they are taking 
to eradicate modern-day slavery from all supply chains. Today, 
over 400 goods in 352 countries are produced by either child or 
forced labor. Given how prevalent modern-day slavery is in the 
global supply chain, CAST now hopes that measures similar to 
the law that we have in California, S.B. 657, can be adopted 
federally. We call for the House to reintroduce the Business 
Transparency in Trafficking and Slavery Act.
    Thank you for your attention today and for the invitation 
to testify before all of you. And I also want to commend you 
for including survivors not only to speak of the suffering that 
they endured in the course of human trafficking, but as the 
experts they are to really help us find the policies that will 
eradicate modern-day slavery. Thank you so much.
    [The prepared statement of Ms. Buck follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Thank you, Kay.
    Angela?

  STATEMENT OF MS. ANGELA GUANZON, SURVIVOR OF INTERNATIONAL 
TRAFFICKING, MEMBER, CAST SURVIVOR ADVISORY CAUCUS AND NATIONAL 
                        SURVIVOR NETWORK

    Ms. Guanzon. Good morning, and thank you, Chairman Royce. 
My name is Angela. I am from the Philippines. I came to the 
United States with a lawful visa and a promise to have a good 
job. In the Philippines, coming to the United States is like 
winning the lottery. I was so excited to go that I did not even 
ask many questions. When I got my visa to go to the United 
States, my passport was taken away from me, and I was told it 
would be held for me until I got to the United States. I 
traveled with about 10 workers to the United States.
    When I got to the U.S., things were very different than I 
thought. I was told I owed $12,000 for my transportation and 
visa and have to work for 10 years to pay it off. I was then 
forced to work in a retirement home for elderly care located in 
a suburb in Los Angeles. I worked 18 hours a day, 7 days a 
week, and we had to sleep on the floor in the hallways. My co-
worker and I, Jayson, were threatened that if we tried to 
escape, we would be deported by calling the police and telling 
them that we stole something from her. And my situation, 
trafficking is not only for women. It is also for men. And this 
went on for 2\1/2\ years.
    Finally I was rescued by the FBI through the neighbor who 
noticed that we did not get a day off. I spoke to the FBI about 
what happened to me, and eventually I testified against my 
trafficker in a criminal court, and she got a 5-year sentence.
    Now, I am a certified nurse assistant and a member of the 
CAST Survivor Advisory Caucus and the National Survivor 
Network. CAST Survivor Advisory Caucus is a group of survivors 
who are learning leadership and advocacy skills to raise 
awareness of human trafficking and to influence policies to 
help better protect and help the survivors of human 
trafficking. National Survivor Network, this consists of, like, 
58 or 60 survivors around 18 States here in the United States.
    I do not believe what happened to me, what happened to 
other people. Because of the work that I do in CAST, I have 
learned that what happened to me happened to a lot of survivors 
that I met in National Survivors Network and CAST Survivor 
Advisory Caucus. I have met a lot of workers that came with an 
H-2B visa and were supposed to work with an H-2A visa. I have 
learned that they came to work in agriculture, but ended 
enslaved on farms all over the United States here with armed 
guards keeping watch. And some have an H-2B visa and a promise 
to have a good job like I was told, but ended up working in a 
hotel under threat of police.
    I am very thankful to Chairman Royce for making such a big 
step to introduce the H.R. 3344. And I feel that he is really 
listening, and he is really listening about the issue. And I am 
so proud that I am here today to participate in this H.R. 3344 
on behalf of the survivors so we can speak and we can be in a 
world that is free of abuse. Thank you.
    [Applause.]
    [The prepared statement of Ms. Guanzon follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Thank you, Angela.
    Carissa?

   STATEMENT OF MS. CARISSA PHELPS, CHIEF EXECUTIVE OFFICER, 
                       RUNAWAY GIRL, FPC

    Ms. Phelps. Thank you. Thank you for this opportunity to be 
here and to speak about strength in survivorship.
    At 12 years old I thought I was born free. I thought that I 
could do anything and be free. But when I was kidnapped by a 
trafficker, kidnapped by a pimp in the town that I was born in, 
people looked the other way. Law enforcement looked the other 
way. Social services looked the other way. And I was blamed for 
what was done to me.
    It took me over 15 years earning my education, graduating 
from law school and business school, connecting with community 
members, to be able to embrace my story, to be able to share 
it, and to be able to speak to this difference that we see 
today, this movement that we see today to end trafficking for 
domestic minors of sex trafficking.
    The work that I do is not just based on my story from the 
past. It is my story of advocacy. I found out as I was becoming 
an advocate that survivors who were sitting alongside of me did 
not have financial means to be there. They were not being 
compensated. They had day care issues. They had transportation 
issues. And they were being asked to come in to share their 
stories, asked to influence policy, asked to make policy, write 
policy, inform policy, and yet they were not being treated as 
experts in the sense that they were not being compensated.
    At one very high profile and federally-supported event, 
survivors were separated from the experts and taken to a 
basement room and asked to share their horror stories to 
complete strangers. I was told at that event that I was not an 
SME, a subject matter expert, and so that is why I was left 
out. I informed that person that I, in fact, was an attorney, 
and did hold an MBA, and was an expert, but I realized at that 
moment that we needed a united front. We needed to connect with 
each other and to stand up for each other in these instances.
    And since then I founded Runaway Girl as a flexible purpose 
corporation. And what that means is that we have a charitable 
purpose in our articles of incorporation. It is a way for us to 
create a platform and lower barriers to entry for survivors who 
are speaking out and educating. It has no borders. It does not 
see international and domestic as any different. The more 
united we are, the stronger we are.
    Slave owners knew that when Willie Lynch wrote his infamous 
letter to his colleagues who were slave owners and told them 
that they needed to lower the self-esteem, to basically demean 
their slaves and to divide them and have them fight against 
each other, the light-skinned against the dark-skinned, the 
house against the field. And when he did that, he knew what he 
was doing. He was dividing them. He was keeping slavery in 
existence. In order to end slavery, we need to unite. We need 
to build up each individual survivor and support them and unite 
them across any borders globally together. And I believe that 
we are going to end slavery for good.
    In this next step as we look at this legislation that was 
survivor informed, I do have recommendations. I do believe that 
anyone who is receiving any type of support or a corporation 
needs to look at and figure out if someone has been a victim of 
human trafficking. They should never be arrested for 
immigration issues. They should never be charged, held in a 
prison for being a prostitute for solicitation or even for a 
runaway violation if they, in fact, have been recruited and are 
being trafficked. As long as we arrest and we hold people 
criminally accountable for what has been done to them, we are 
allowing slavery to exist.
    We need to address demand. We need to arrest demand--
literally arrest demand. We need to treat demand as part of the 
trafficking equation. So trafficking in arms and trafficking in 
drugs we know requires sellers and buyers and that they are all 
traffickers. But for some reason we have excluded buyers from 
our trafficking work and what we do. We will no longer protect 
the buyers who allow this to happen.
    As a survivor group and as a survivor voice, I hear that 
loud and clear from my colleagues and from my friends. And we 
must end the demand for trafficking by going after those people 
who allow it to happen from the very top to the very bottom in 
our society. We have people who buy children, and who buy 
labor, and who are enslaving, and we need to hold them 
accountable as buyers as well with more than 5-year sentences, 
with more than 13-month sentences--with real sentences for what 
they have done, which is taking away someone's freedom.
    [Applause.]
    Ms. Phelps. My final recommendation is to invest in 
survivors individually and in groups. We need to see to the 
longevity of survivors. What is it that they are offering as 
they are growing, and learning, and becoming a part of our 
community? Once again, how can we in the long run expect 
survivors to be there if we are having them pay their own way 
to be there? It just does not make any sense. So investing in 
survivors individually and in groups, and supporting their 
global leadership, and supporting them supporting each other is 
something that I would highly recommend.
    And I thank the people who are here today that are doing 
the work. And I know that here, I know there is a group who is 
part of the FACT Alliance and the fight against child 
trafficking, and that does not have borders, does not see 
international and domestic differently, that supports freedom 
for children in all areas of the world. So thank you so much 
for your support today.
    [Applause.]
    [The prepared statement of Ms. Phelps follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Thank you, Carissa. Thank you, Carissa, for 
that testimony. And I was going to ask Tony Rackauckas, the 
district attorney, a question along those lines. Your 
circumstance, the fact that, as Tony shared, the average age 
for teen underage girls now is 12 when we are bringing these 
cases. Under the new law, under Prop. 35, I guess one of the 
advantages is a focus on those involved in the criminal 
syndicates and those participating as pimps, and more focus on 
those who create the demand as well. But the fact is that we 
have that new prosecution with the result of 32 years for an 
individual who is involved in trying to recruit underage girls, 
and this particular girl was 13 that he tried to lure up to 
Sacramento, and he was caught doing it.
    Let me ask you, if I could, Mr. Rackauckas, are there any 
common factors that increase the susceptibility, the nature of 
the risk, for a 12-year-old, 13-year-old, being vulnerable to 
being trafficked? If you would give us some insights on that. 
And what strategies have our panelists found to be most 
successful in addressing that particular problem?
    Mr. Rackauckas. Well, those are certainly great questions. 
I think that as far as the vulnerability is concerned, what 
seems to happen mostly is that they wind up meeting somebody, 
and this person appears to be somebody who looks fine and 
appears to be upstanding, and gets them into a car or some kind 
of a compromising situation, and then just takes them off. And 
we have seen quite a number of cases where a young girl would 
willingly get in the car with somebody or go off with somebody, 
and then, of course, once that person gets control, he winds up 
taking her quite far away. It is not usually just in the local 
area, but it might be to another State, and then gets control, 
dominates her, beats her up a few times to let her know that 
she cannot disobey anything that he has to say. And then he 
starts trafficking her.
    So as far as what would be the common thing, you know, I do 
not know if I can put my finger on it except to say that, you 
know, just being out on their own, not being supervised, and 
winding up being in the hands of a stranger. It is not usually 
a kidnapping off the street where somebody jumps out of the 
bushes and grabs a young girl and throws her in the car. It is 
usually a cooperative sort of a thing.
    Chairman Royce. Kay, let me ask you that question, too, or 
any of the other panelists.
    Ms. Buck. The same question?
    Chairman Royce. Yes, just the factors that, in your 
opinion, make girls of that age at risk for being recruited 
into or kidnapped into this type of situation.
    Ms. Buck. Well, there are definitely factors, and certainly 
socioeconomic status is one factor. That said, we have served 
clients, served survivors, here in LA who have had university 
degrees. So I think we need to look at, you know, there is a 
domestic population, yes, that have been survivors. There is 
also a foreign national population. And I really want to credit 
Carissa that the similarities are more than the differences. 
And as a movement, we need to look at this more when we are 
looking at the factors of vulnerability.
    So what I am saying is that the foreign labor contractor 
who drives into a community in a foreign country and looks, you 
know, nice, drives a nice car, says come with me, or, let me 
take your children, they'll be given a really great education, 
is not that different from the pimp who seeks out one girl in 
the same fashion.
    So when we are talking about vulnerability factors, and I 
do want to say that we are really proud to be working with 
Representative Bass' office on the child welfare system. And we 
are doing some really innovative things in LA working with the 
county board of supervisors to address the vulnerability 
factors, which can be everything from socioeconomic status to, 
you know, to the traffickers going in and being allowed to do 
recruitment in the way that they are doing that.
    So I think there are a lot of vulnerability factors is what 
I am saying.
    Chairman Royce. Thank you. I was going to ask one last 
question of Angela, and that is if during the visa application 
process you had been given information about antitrafficking 
protections under U.S. law or maybe the number to that 
antitrafficking hotline, do you think that that would have 
helped you escape sooner, Angela? Angela, if you had had 
access----
    Ms. Guanzon. I am so sorry.
    Chairman Royce [continuing]. To the antitrafficking hotline 
at the point that you----
    Ms. Guanzon. No.
    Chairman Royce [continuing]. Had the visa application----
    Ms. Guanzon. No.
    Chairman Royce [continuing]. Would that have helped you if 
that had been given up front, or if you had been given 
information about antitrafficking protections in the United 
States, would that have assisted you?
    Ms. Guanzon. Yes, it would be helpful, and I am just going 
to show this one, the Survivor Advisory Caucus that we have, a 
member, she worked as a nanny. And they were based on--and when 
they came, when she went through the immigration, somebody 
handed her the information about the hotline, and that is how 
she got help. And when she got to the hotel, she called the 
number, and that is how she got help from CAST.
    Chairman Royce. Thank you. Thank you. We are going to go to 
Representative Karen Bass.
    Ms. Bass. Thank you. Well, once again let me just thank all 
of the witnesses for your testimony. And to Carissa and Angela, 
I really appreciate you coming forward and being willing to 
share your story. And Carissa is just amazing because I met her 
years ago and back when you were a student, and to see progress 
and what you have done is just really incredible. And I 
appreciated that you pointed out the demand side, and also that 
you talked about how those of us who are well meaning have to 
make real sure that we do not re-assent or exploit your time in 
the way that you described.
    But we mentioned the demand, and I wanted to go to our 
witness from the DA. One of the things that I do not 
understand, and especially on the underage side, I do not 
understand, and maybe I am wrong, but that the men are not 
charged with rape, and also that I do not think you can use the 
word ``prostitution'' for a child because if you are below the 
age of consent, then how can you be considered a participant?
    So the question is, are people charged with rape as opposed 
to soliciting?
    Mr. Rackauckas. Yes. Yeah, the answer to the question is, 
of course, yes. Any time that we would have a case where the 
child who is so young, that person would definitely be charged 
with rape. But, you know, this Proposition 35, by the way, has 
been very helpful. Even since 8109 went into effect, and so 
many people in California do not go to prison. Under Prop 35, 
we are sending a lot of these traffickers to prison now for a 
long time period.
    Ms. Bass. But the solicitors, the johns.
    Mr. Rackauckas. If we can show that the john knows or 
should know that this young lady is under 18 years of age, 
then, yes, we would, of course, charge that person at least 
with statutory rape.
    Ms. Bass. Right, because anybody is supposed to know that. 
I mean, that is statutory rape, right? Because what I 
understand, this is what the LA FBI told me, is that guys 
specifically ask for age. I mean, apparently there are places 
in LA where you can go on this one street, and that is where 
they are between 12 and 13, and so people are specifically 
doing that.
    It is raising the issue of really going after the demand, 
obviously the traffickers, but----
    Mr. Rackauckas. Absolutely. And we are not calling them 
``johns'' anymore. We are not using that kind of a euphemism. 
Now, they are being referred to as sex purchasers.
    Ms. Bass. Or if they are under age.
    Mr. Rackauckas. Right. And if they are under age, we are 
going to prosecute them on the rape charge, and if the victim 
is not under age, then, of course, we are still going to 
prosecute them for soliciting, and we are going to publicize 
their names as well.
    Ms. Bass. Good. Now, are the girls, when they are arrested, 
which I do understand sometimes that is an important thing to 
do. But what are they charged with? They are not charged with 
soliciting, right?
    Mr. Rackauckas. Well, in the past it has always been a 
soliciting to commit prostitution. But we are taking a much 
different approach on that now because looking at 
circumstances, and we are treating them like the victims that 
they are, and we are trying to work with them to develop the 
case because we need them to give us the information that will 
take us to the person who is trafficking them.
    Ms. Bass. I know, and I will bet you that is a huge 
challenge because it is probably very difficult for them to 
actually do that. And I think it is part of the community 
education to not view an underage child as being capable of 
prostitution, you know what I mean? Changing that.
    Mr. Rackauckas. It is a huge challenge, and that is one of 
the reasons we are talking about resources because we are 
committing, of course, resources from the DA's office, and the 
Anaheim Police Department has resources committed for the 
county-wide committee. But a lot of the police departments do 
not have that kind of resource.
    Ms. Bass. Right.
    Mr. Rackauckas. And it requires a good deal of 
investigation. It is not just a quick thing. It requires a 
serious investigation that is going to take place over time to 
get the job done.
    Ms. Bass. Exactly.
    Mr. Rackauckas. So that is an issue with us, too.
    Ms. Bass. Thank you. And then just one further question, if 
you do not mind, Mr. Chairman. Carissa, if there was one type 
of social service that would be most needed for the girls, what 
is that?
    Ms. Phelps. I think the number one protective factor that 
has come up is information and education. It is empowering 
those young women, and boys, and foreign nationals, people that 
are vulnerable. It is giving that phone number and that 
information at a very early age in the early stage because not 
everyone who even has a mom and dad at home has protection and 
information about what is going on out on the streets. And I 
think with more education, that would lead to greater 
prevention.
    Chairman Royce. Mr. Weber?
    Mr. Weber. Thank you, Mr. Chairman. I am really glad that 
our district attorney is present. He was telling us not to call 
them johns. We have fought that fight in Texas. You know, we 
have a term for them, but since we are being recorded and maybe 
broadcast, so I will not tell you what that is. [Laughter.]
    I said earlier we would like to put them under the 
jailhouse, you know. The City of Waco had a great program where 
they actually posted their pictures on billboards throughout 
the city, and I would love to see every city doing that.
    And one of you cited--Carissa, maybe it was you--a study by 
a lady that said the ``purchasers of sex,'' POS. That is what 
we call them. [Laughter.] They pretty much agree that if they 
had paid a $1,000 to $2,000 fine or spent a month in jail that 
they would not be out looking for it. And I was shocked when I 
did some research on her. She has actually done research all 
the way back to '94 along these lines. I do not know how you 
followed her. It is really interesting. It is really good 
stuff.
    And the thought occurred to me, and, Mr. District Attorney, 
you might be able to tell me, you know, we have sexual offender 
registries, and we put them online, and they are precluded from 
living near schools, and it varies by State. But how about 
this? What if we put that on their driver's license so that----
    [Applause.]
    Mr. Weber [continuing]. So when they have a habit--and it 
gets better, so just stay tuned. [Laughter.] When they have a 
habit of being POSs, it goes on their driver's license and 
their credit report. People need to know what they spend their 
money for. Has anybody ever thought--I mean, I am talking from 
a policy making standpoint. Have you ever heard of any 
legislation like that?
    Mr. Rackauckas. I have not. I have not.
    Mr. Weber. We will get to work on that. [Laughter.]
    [Applause.]
    Mr. Rackauckas. Maybe it would be helpful if you would come 
and work with our California legislature on that particular 
idea. [Laughter.]
    Mr. Weber. Okay. And then another question I have. It seems 
to me that we are talking about education and helping our 
victims with what they need the most, and I appreciate Member 
Bass' question, what do they need the most. Are we going down 
into the junior high and middle schools, and are we saying, 
ladies, guys, this is what is out there in store, you need to 
be aware of it. We are doing that in the local school 
districts, are we? One is saying yes, the other is saying no. 
We are having a disagreement here.
    Ms. Phelps. We want to. We definitely want to, and we want 
to bring more survivor leaders in for that preventative work 
because we know it is personal stories that make that impact. 
So it is definitely something we are looking at in partnership 
with school districts. Some have reached out and been very 
proactive about it. Others will need some mandates to get it 
done.
    Ms. Buck. Yeah.
    Mr. Weber. Okay. Well, I would just encourage you to do 
that. Any help we can give, and I know you all have very 
capable members here in California who would help, too. So, Mr. 
Chairman, I will yield back.
    Chairman Royce. Thank you. We will go now to Mr. 
Rohrabacher, and then we will finalize with Mr. Lowenthal.
    Mr. Rohrabacher. So I assume by the last answer that 
perhaps we need to be more proactive in our schools at an 
earlier age and giving as much warning to our young people. 
That is something we need to do more of?
    Ms. Phelps. Yeah. I cannot remember the name of the study, 
but I will provide it to you later. There is a study for 
overseas victims, and it was about positive deviance. So when 
all of these vulnerable factors are in place, when all of them 
are in place and when they are living in poverty, when 
trafficking is all around them in their community, what was the 
difference for the people that were not trafficked, the 
positive deviance. It was information and education, and that 
is true empowerment. And it says, you know, we can inoculate 
and prevent this from happening with information and education.
    Mr. Rohrabacher. And, Tony, our district attorney, I have 
noticed in your testimony about the recent 24 defendants that 
went to State prison. And you have 40 active felony cases or 5 
defendants facing lifelong counts and there are other major 
accomplishments in terms of law enforcement.
    You interact with your fellow district attorneys because 
your report says one of the fellows that you picked up was in 
county jail said that he would have been out if he was in 
another county. So how do you rate, and I will not ask you to 
rate them specifically by name, but how do you rate the way 
district attorneys around the country are doing on this issue?
    Mr. Rackauckas. I think that district attorneys' offices 
are not uniform, that there has been, I think, an awareness or 
an awakening that has developed just in the last couple of 
years. And so, it is in the process of developing at this 
point.
    I know that in the last Statewide district attorney 
conference that we had, the California attorney general and 
some other district attorneys made a lot of effort to present 
information, particularly the Alameda district attorney, but a 
lot of effort to present this kind of evidence and the sort of 
things that we are talking about here for the DAs on a 
Statewide level. And I think that it is improving a great deal.
    Mr. Rohrabacher. Was that giving them a good assessment or 
a bad assessment for your fellow DAs? [Laughter.]
    I think that is what we are supposed to do at hearings like 
this. I mean, is law enforcement--number one, I am satisfied 
that you are doing a great job. I would not back you for 
election otherwise. I am satisfied of that. I am not 
necessarily satisfied that law enforcement around the country 
is meeting that same standard.
    Mr. Rackauckas. You know, I can just relate more to Orange 
County, and I can tell you that police departments are having a 
tough time trying to keep resources in this kind of an area. 
For example, one of our large police departments has a number 
of people who are in the vice squad who may have been paying 
attention and doing these investigations for the last 1\1/2\ or 
2 years and doing some pretty good work. But now with the 
cutting of resources and the difficulty of keeping resources in 
an area like this, they probably are going to take those 
resources away and just put them in the more general kind of 
police work. So it is tough to get good local investigations to 
bring these cases forward.
    Mr. Rohrabacher. Okay. Well, obviously this is not a job 
just for local police, and it is obviously more than just our 
local school teachers. And Mr. Royce is pointing out the 
national and international aspect of this challenge to our 
society. And so, obviously we have from the administration a 
commitment to all of us working together, and I think that is 
what this is all about.
    Thank you very much, Mr. Royce, and all of the witnesses.
    Chairman Royce. Mr. Alan Lowenthal?
    Mr. Lowenthal. Thank you, Mr. Chair. First, I have a 
question for Ms. Buck, but really the question will be a follow 
on to really all the panelists. I really want to compliment you 
for advocating for victims of human trafficking. Your work 
obviously here today and with all the panelists really sheds 
light on this egregious offense which affects the dignity of, I 
think, worldwide more than 20 million people. And I noticed 
that CAST provides, in looking through and listening to you, 
many critical kinds of services, such as legal services, and 
emergency response, shelter, and case management.
    But I am interested in a particular subset in terms of the 
healing of people that have gone through this. As a mental 
health professional in the Congress----
    Ms. Buck. Yes.
    Mr. Lowenthal [continuing]. I would really like to 
understand from you and from the others about how we really 
deal with some of the long-range healing of people who have 
been subjected to this kind of abuse, really long-term abuse. 
And if you could shed some light on what we should be dealing 
with in terms of long-term mental health issues. And then I 
would like to ask the rest of the panelists also about really 
where mental health really fits into this.
    Ms. Buck. Absolutely. That is a great question because I 
think as both Carissa and Angela pointed out, empowerment is 
really necessary. Sometimes the traditional modalities of 
mental health are not necessarily provided through an 
empowerment program or an empowerment approach. And so, what 
the field is really moving toward is what is called trauma 
informed care.
    And so, actually even our legal services program at CAST, 
we train our attorneys in trauma informed care so that not only 
are mental health services delivered in that fashion, but legal 
services, shelter, and emergency response. And that has been 
the number one indicator for us of success where, you know, we 
work very closely with survivors. Most survivors stay with us 
on average about 2 years.
    So, you know, we have the opportunity and really the 
privilege of following them through their healing process. And 
what we know works is a variety of options, so it is not one 
modality that people have to stick to through that whole 2-year 
process. It is really using the arts and music, mentoring as 
well as something that is very helpful.
    When you think about it, most of our clients, whether they 
be a domestic client or a foreign national client, come to us 
with a very small support system. Sometimes they do not have 
any support system at all. So by empowering them and helping 
them connect with other survivors, that begins their social 
network, and then going into the community do that more, we 
have a lot more success.
    We are doing something or piloting something that is new in 
the coming weeks where it is called ``Open Table.'' And it is 
actually a modality that is used, and the first one has been 
very successful in Arizona in a faith-based context and for the 
homeless population. We are adapting it to serve human 
trafficking survivors where they can meet every Sunday with a 
group of community members who can mentor them, who can become 
their social network for 2 years at a time. And they open up 
jobs for them. They connect them to other community resources. 
That is the kind of services that are really necessary. So it 
is not a traditional modality, but rather other progressive 
modalities that we know work.
    Mr. Lowenthal. Thank you. And I wonder if other panelists 
might want to comment about the healing process, and how we 
empower people, and how we even change the, what I have just 
heard, is the very nature of the delivery of all services, that 
this empowerment model has to be included in the training of 
all folks, including law enforcement. And so, I am just 
wondering how that is being played out in your experiences and 
what you can add to that, because I am convinced that 
frequently we overlook mental health as one of the critical 
issues to deal with.
    Ms. Guanzon. I am just going to speak for myself. I lived 
in a shelter for 1\1/2\ years, and through the CAST Survivor 
Advisory Caucus, we have this, like, every week or once in a 
month we have this potluck. Before I was too scared to get out 
from the shelter because I did not know anybody. I am so scared 
that if I go out, am I going to be, like, with anybody else, or 
am I going to be, like, somebody knows that I am different.
    But through the CAST Survivor Advisory Caucus, they make me 
feel that even though I have been in that situation, I have a 
family. And CAST staff, they are so good for making us feel and 
teaching the proper way of--we can say no. ``No'' is not a 
light word for us, but from the CAST staff, we are taught that 
at every step or every decision that we are going to do, you 
are entitled to say ``no.'' It is up to you.
    So with that, we learn. And in the Caucus, I have learned 
that being outside the shelter is like just regular people that 
you can be mingled and talk to, and there is no, like, 
situation between us and the people outside.
    Ms. Phelps. When I initially came out with my story, I 
would be introduced at events that had nothing to do with 
trafficking as here is Carissa Phelps, a former child 
prostitute. And it became the fixation of people when they met 
me. And so, education in our communities as well is critical. 
And with sexual assault, any type of victimization, educating 
your community about how to receive people, whether they are 
law enforcement, education, mental health providers, is 
critical.
    Susan Draper from West Coast Clinic, she is in Alameda 
County, and she is the leading expert for child sex trafficking 
response, mental health response. She is, I think, getting 
ready to retire, so we could, like, find a job for her to lead 
the way and educate other communities about the mental health 
approach, because it is critical that the team of mental health 
professionals are also not just educated, but supported because 
there is a level of trauma and victimization that they are 
learning about, and hearing, and taking in.
    In order to make that job sustainable for them, they really 
need a strong, supportive network themselves. And I think Susan 
is the lead expert in that right now.
    Chairman Royce. Thank you. Well, in summation, let me just 
thank our panelists for helping us to understand not only the 
challenges going forward, but also the important work that is 
being done out in the community today. And especially we want 
to thank my Human Trafficking Congressional Advisory Committee 
for their input.
    As we go forward, we are going to be working with members 
of the Panel and members of the community to try to strengthen 
legislation.
    I want to thank my committee members who are here as well. 
This will be a committee product, and so we thank them for 
their participation. And out there in the audience, we thank 
the members of the community that came forward in order to hear 
more about this issue, to be involved. And we appreciate the 
activism from so many who are supporting some of the community 
groups that are dealing with the survivors, those who are 
involved in these situations of sexual slavery of children that 
were pressed into this, or for those overseas who have been 
trapped with respect to labor trafficking.
    And lastly, thank you very much to you, Ambassador CdeBaca, 
for coming out.
    And I shall share with you all that today's video, and 
testimony, and legislative info are available online at 
foreignaffairs.house.gov. Thank you very much.
    [Applause.]
    Chairman Royce. We stand adjourned.
    [Whereupon, at 12:06 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Material submitted for the record by the Honorable Edward R. Royce, a 
Representative in Congress from the State of California, and chairman, 
                      Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
